<html>
<title> - [H.A.S.C. No. 111-139]MILITARY PERSONNEL LEGISLATIVE PRIORITIES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-139]

 
               MILITARY PERSONNEL LEGISLATIVE PRIORITIES

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 17, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
57-335                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001



                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOE WILSON, South Carolina
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MADELEINE Z. BORDALLO, Guam          JOHN KLINE, Minnesota
PATRICK J. MURPHY, Pennsylvania      THOMAS J. ROONEY, Florida
HANK JOHNSON, Georgia                MARY FALLIN, Oklahoma
CAROL SHEA-PORTER, New Hampshire     JOHN C. FLEMING, Louisiana
DAVID LOEBSACK, Iowa
NIKI TSONGAS, Massachusetts
                Craig Greene, Professional Staff Member
                 John Chapla, Professional Staff Member
                      James Weiss, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, March 17, 2010, Military Personnel Legislative 
  Priorities.....................................................     1

Appendix:

Wednesday, March 17, 2010........................................    27
                              ----------                              

                       WEDNESDAY, MARCH 17, 2010
               MILITARY PERSONNEL LEGISLATIVE PRIORITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
Wilson, Hon. Joe, a Representative from South Carolina, Ranking 
  Member, Military Personnel Subcommittee........................     2

                               WITNESSES

Bostick, Lt. Gen. Thomas P., USA, Deputy Chief of Staff, G-1, 
  U.S. Army......................................................     5
Ferguson, Vice Adm. Mark E., III, USN, Chief of Naval Personnel, 
  Deputy Chief of Naval Operations, U.S. Navy....................     6
Newton, Lt. Gen. Richard Y., III, USAF, Deputy Chief of Staff for 
  Manpower and Personnel, U.S. Air Force.........................     9
Stanley, Hon. Clifford L., Ph.D., Under Secretary of Defense for 
  Personnel and Readiness, U.S. Department of Defense............     3
Zilmer, Lt. Gen. Richard C., USMC, Deputy Commandant for Manpower 
  and Reserve Affairs, U.S. Marine Corps.........................     8

                                APPENDIX

Prepared Statements:

    Bostick, Lt. Gen. Thomas P...................................    91
    Davis, Hon. Susan A..........................................    31
    Ferguson, Vice Adm. Mark E., III.............................   108
    Newton, Lt. Gen. Richard Y., III.............................   147
    Stanley, Hon. Clifford L.....................................    37
    Wilson, Hon. Joe.............................................    34
    Zilmer, Lt. Gen. Richard C...................................   128

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................   161
               MILITARY PERSONNEL LEGISLATIVE PRIORITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                         Washington, DC, Wednesday, March 17, 2010.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2118, Rayburn House Office Building, Hon. Susan Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon. The meeting will come to order. 
Today the subcommittee will turn its attention to the important 
issue of maintaining an all-volunteer force during a protracted 
war with a focus on end strength, recruiting and retention and 
families.
    Prior to fiscal year 2008, the services experienced a 
stressed recruiting environment due predominantly to relatively 
low unemployment, a protracted war, a reduced propensity for 
youth to serve and a reluctance for influencers to recommend 
military careers.
    The services responded with an increase in spending in 
order to maintain an all-volunteer force, but not without a 
reduction in the quality of the force.
    It is an unfortunate reality today that the economic 
hardship that has impacted so many families in America has 
reversed those trends and caused both recruits and currently 
serving members to view career opportunities in the military 
more favorably.
    As the service continues to enjoy record recruiting and 
retention performance, budget managers have sought to reduce 
resources for those programs.
    The committee is extremely concerned about the future of 
these critical programs and whether the services are postured 
to react rapidly to an improving economy with the resources 
that will be necessary to be competitive with a reenergized 
private sector job market.
    Other issues of interest to the subcommittee today include 
spouse education and employment programs; family readiness 
before, during, and after deployment; the status of ``don't 
ask, don't tell'' study group; reliance of the services on 
supplemental appropriations; and pay raise and retiree 
compensation budget proposals.
    We have an excellent panel consisting of the undersecretary 
of defense for personnel and readiness and the four personnel 
chiefs of the military services to help us explore these 
issues.
    I request that you all keep your remarks, to the extent 
that you can, oral comments, to three minutes, and we will 
certainly have time for questions.
    Without objection, all written statements will be entered 
into the record.
    Mr. Wilson, would you like to add some remarks?
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 31.]

   STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM SOUTH 
   CAROLINA, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. Wilson. Mrs. Davis, thank you for welcoming our 
witnesses, two of whom, General Bostick and General Zilmer, 
appear before us for the first time in their current 
capacities.
    I want to thank all of you for your service to our nation. 
Also, I am so grateful to see Secretary Stanley here. He is a 
graduate of South Carolina State University, which--from my 
home state--we are very grateful provides the largest number of 
officers of any historically black college in the United 
States.
    And so we are so proud of the heritage, Secretary, and you 
also graduated in an excellent year, 1969. I identify with 
that, so--and you are from my home town--our home town, 
Charleston.
    We have been at war for nine years, and it is a remarkable 
testament to the efforts of these men and women and their 
predecessors that the all-volunteer force has weathered the 
severe wartime trials.
    The effort to recruit, retain and in some cases grow the 
armed forces is never easy in the best of times. During most of 
the last nine years of conflict, a bad economy and the reality 
of war made the effort even more difficult.
    Nevertheless, each of the military services succeeded to 
such a degree that in 2009, for the first time since the 
beginning of the all-volunteer military, every recruiting goal 
both in quantity and quality was met or exceeded in both the 
active and reserve components. That is a remarkable 
achievement, and you and your predecessors deserve a lot of 
credit.
    I personally identify. I represent Parris Island and I 
represent Fort Jackson, and so I know as the young people come 
to serve it is so extraordinary to go to graduations and see 
their family members not recognize the graduates. These young 
people look like a million dollars.
    So thank you for what you do, and I know how fulfilling 
military service is, with four sons currently serving in the 
military, and I had the privilege and opportunity to serve 31 
years. And the people you get to meet--it is such a wonderful, 
fulfilling experience of life.
    Today's hearing is principally focused on recruiting, 
retention, and end strength, as well as the department's 
legislative priorities.
    In that context, I would ask Dr. Stanley in his opening 
oral comment to comment on three legislative issues. First, why 
it is important for Congress to pass the president's proposal 
to provide concurrent receipt of military retired pay and VA 
[Department of Veterans Affairs] disabilities pay for Chapter 
61 military disability retirees.
    Second, whether the department supports legislation to 
repeal the widow's tax, which is the required offset between 
annuities received from the survivor benefit plan and the 
Veterans Administration payments for dependency and indemnity 
compensation.
    And third, whether the department supports legislation for 
a retroactive early retirement credit for certain wartime 
reserve components prior to January the 28th, 2008.
    Mrs. Davis, I thank you for holding this hearing and I look 
forward to the testimony of our witnesses.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 34.]
    Mrs. Davis. Thank you, Mr. Wilson.
    It is now my pleasure to introduce our outstanding panel. 
First is the Honorable Dr. Clifford L. Stanley, Under Secretary 
of Defense for Personnel and Readiness.
    Thank you for being here.
    Lieutenant General Thomas P. Bostick, Deputy Chief of 
Staff, U.S. Army.
    Vice Admiral Mark Ferguson III, U.S. Navy, Chief of Naval 
Personnel, Deputy Chief of Naval Operations, Total Force.
    Lieutenant General Richard C. Zilmer, Deputy Commandant for 
Manpower and Reserve Affairs, Headquarters, U.S. Marine Corps.
    And Lieutenant General Richard Y. Newton III, U.S. Air 
Force, Deputy Chief Staff Manpower and Personnel, Headquarters, 
U.S. Air Force.
    Thank you all very much.
    I want to welcome General Bostick and General Zilmer 
because this is the first time that you are here in these new 
roles, and we appreciate your being here. Thank you so much.
    And please begin, Secretary Stanley.

 STATEMENT OF HON. CLIFFORD L. STANLEY, PH.D., UNDER SECRETARY 
  OF DEFENSE FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF 
                            DEFENSE

     Dr. Stanley. Good afternoon, Chairwoman Davis, Mr. Wilson, 
and Mr. Kline, distinguished members of the panel. We are here 
today at a military subcommittee--personnel subcommittee. It is 
an honor to appear before you to speak with you concerning the 
Department of Defense's [DOD's] personnel programs and 
readiness.
    For the past four weeks now, as the Undersecretary of 
Defense, I have had the honor of working with and interacting 
with some of our greatest men and women in uniform, Department 
of Defense civilians and contractors and families. It is truly 
a privilege to serve them in this position.
    I first want to thank you for your strong support of these 
men and women over the years. They have fought our wars and 
protected our interests and our allies around the globe. I look 
forward to working closely with this committee to improve 
support for those in uniform, the civilian employees of the 
department and their families.
    In terms of military personnel, the services are 
experiencing historic successes in recruiting and retention. It 
is a tribute to both the dedication of our military personnel 
and the patriotism of our nation's citizens that we continue to 
maintain an all-volunteer force of unprecedented quality for 
more than--after more than eight years of active combat 
operations.
    I am happy to report that we have improved overall 
entitlements to the point that all of our personnel are paid at 
or above the 70th percentile of their civilian counterparts.
    Our challenge today is--as you have alluded to already, is 
to maintain this position without imposing greater long-term 
bills and offsets while using targetable tools such as special 
pay and bonuses to shape and manage our force.
    Similar to our efforts to target and define the impacts of 
each pay with our active personnel, we must continue to ensure 
that we support those we have already are serving. But again, 
we must do so in an equitable manner and one that is consistent 
with the overall demands of the department.
    As an example, the Department continues to oppose efforts 
to eliminate the offset between the survivor benefit plan and 
dependency indemnity compensation programs.
    Allowing concurrent receipt of the survivor benefit plan 
and the dependency indemnity compensation without offset would 
create an inequity with one select group receiving two survivor 
annuities while survivors of most military retirees and 
survivors of veterans who died of service-connected cause but 
were not retired would actively--would receive only one or the 
other.
    At the same time, in seeking that broader equity and 
department-wide impact, we see a win-win opportunity in 
expanding the concurrent receipt program to include military 
disability retirees with less than 20 years of service, 
regardless of disability rating.
    This expansion would cover our most challenged retirees by 
allowing them to receive retired pay for their years of service 
performed and VA disability compensation for their future 
reduced earning capability.
    Our military forces maintain an exceptionally high level of 
readiness, but multiple deployments to Iraq and Afghanistan 
have certainly increased the stress on our services and their 
families.
    And we have a number of initiatives under way to address 
the stress and have set clear limits and goals for deployment 
lengths, the amount of time, or dwell between deployments.
    We have also committed to the further improving of support 
of our military families. For fiscal year 2011, we have 
requested a 41 percent increase in the family assistance 
baseline funding across the department.
    Unfortunately, we have had some stumbles in this area, and 
I am sure you are aware of My Career Advancement Account 
[MyCAA], where the program had some unforeseen, unprecedented 
but welcome demand in the enrollment. It overwhelmed the 
infrastructure of the system.
    Over the past few weeks, the Department of Defense mapped 
out solutions for both the short and long term that honors our 
commitment to our military spouses while accounting for our 
fiscal realities.
    This past Saturday the MyCAA program restarted for over 
136,000 spouses currently in the program to continue their 
career training plans, and we are preparing options for the 
long-term management of the program, and we intend to seek 
input from our program stakeholders before making a final 
decision on a long-term plan.
    With this plan and other programs we oversee, we know we 
must make a concerted effort to restore our faith and our 
credibility and confidence in the military spouses, service 
members and the American public.
    The department also is proactively working on child custody 
issues that our service members may face as a result of their 
service to our nation, and I appreciate the efforts of the 
subcommittee in this regard.
    Secretary Gates sent letters urging action to each of the 
governors of the states that have not passed any military-
specific child custody legislation. Also, child custody has 
been listed in the Department's 10 quality-of-life issues 
presented to the governors and other officials.
    I want to stop there and look forward to the questions and 
get to more--maybe some specifics that Mr. Wilson asked later 
on. I thank you.
    [The prepared statement of Dr. Stanley can be found in the 
Appendix on page 37.]
    Mrs. Davis. General Bostick.

 STATEMENT OF LT. GEN. THOMAS P. BOSTICK, USA, DEPUTY CHIEF OF 
                     STAFF, G-1, U.S. ARMY

     General Bostick. Good afternoon, Chairwoman Davis, 
Representative Wilson, Representative Kline, and Representative 
Snyder. Thank you for the opportunity to appear before you 
today.
    On behalf of our Secretary, the Honorable John McHugh, and 
our Chief of Staff, General George Casey, I would like to thank 
you for your unwavering support and demonstrated commitment to 
our soldiers, our civilians, and our great family members.
    Our all-volunteer Army is now in its ninth year of 
continuous combat operations. And despite the challenges such 
an incredible demand poses, America's Army remains resilient, 
professional, and combat-seasoned.
    Our senior leadership, however, recognizes the strain this 
operational tempo has placed on the force and the vital need to 
restore balance. Consequently, we have set two key objectives 
in this area. First, to sustain our all-volunteer force in an 
era of persistent conflict. And second, to provide the best 
possible care, support, and services for our soldiers, 
civilians, and family members.
    Our first mission is sustaining the force, and that has 
been to recruit and retain the highest possible quality 
civilians and soldiers for service in our Army. With the 
support of Congress and the nation, we are very proud to report 
that America's Army achieved 104 percent of our recruiting 
goals for 2009, while also achieving all benchmarks with regard 
to recruiting highly qualified soldiers.
    Moreover, all components of the Army exceeded 105 percent 
of their reenlistment goals. Your support of incentives have 
been key to this success. As the pace of economic recovery 
increases, we will carefully review incentives and seek your 
support to ensure we remain highly competitive in the evolving 
job market.
    In a related effort, the active Army is implementing a 
temporary increase to our end strength of up to additional 
22,000 soldiers. This measure was approved by the Secretary of 
Defense in July of 2009 and it addresses the increased number 
of non-deployables in our formation and helps to ensure the 
readiness of those deploying. It also improves the dwell time 
between deployments for our soldiers and families.
    Our second mission has been to increase the quality of 
care, support, and services to the Army team. To this end, we 
have aggressively pursued a number of programs to better care 
for and increase the resiliency of our soldiers, civilians and 
family members.
    From increasing behavioral health counselors to address 
post-traumatic stress syndrome, to pilot programs to improve 
the delivery of substance abuse counseling and treatment, and a 
holistic approach to suicide prevention, we are moving on a 
broad front to address what some have termed the invisible cost 
of our current conflict.
    Consistent with the spirit of our Army values and warrior 
ethos, we have also pursued the OSD [Office of the Secretary of 
Defense]-led effort to execute our Sexual Harassment/Assault 
Response and Prevention Program in order to educate our force 
on this critical issue; de-stigmatize reporting of incidents, 
whether in garrison or during contingency deployments; and to 
ensure that allegations are properly and promptly investigated 
and resolved.
    Together with the other programs such as Comprehensive 
Soldier Fitness, the Strong Bonds Program, the Army Family 
Covenant, and expanded survivor outreach services to assist the 
families of our fallen brothers and sisters, we are putting 
into place a network of programs to promote resiliency and 
well-being.
    To conclude, I wish to thank all of you for your continued 
support which has been vital in sustaining an all-volunteer 
Army through an unprecedented period of continuous combat 
operations.
    With your support, we will continue to work towards 
restoring balance and sustaining the high quality of our Army 
for the duration of the current fight and for the foreseeable 
future.
    Chairwoman Davis and members of the subcommittee, I thank 
you for your generous and unwavering support for our 
outstanding soldiers, civilians, and their families, and I look 
forward to answering your questions.
    [The prepared statement of General Bostick can be found in 
the Appendix on page 91.]
    Mrs. Davis. Thank you.
    Admiral Ferguson.

  STATEMENT OF VICE ADM. MARK E. FERGUSON III, USN, CHIEF OF 
  NAVAL PERSONNEL, DEPUTY CHIEF OF NAVAL OPERATIONS, U.S. NAVY

     Admiral Ferguson. Chairwoman Davis, Representative Wilson, 
and distinguished members of the committee, I thank you for the 
opportunity to appear before you to review our fiscal year 2011 
budget request.
    The extraordinary people of our Navy are serving around the 
globe with over 40 percent of our ships currently underway or 
deployed. Sailors remain engaged in Iraq and Afghanistan, with 
more than 21,000 active and reserve sailors serving afloat and 
ashore in the region.
    Demonstrating our operational flexibility, more than 4,000 
active and reserve sailors and Navy civilians responded quickly 
in January to the devastating earthquake in Haiti with our 
hospital ship Comfort and other naval units.
    Current operational demands and a high operating tempo have 
placed added stress on the force. Providing a comprehensive 
continuum of care for our sailors and their families, 
therefore, remains a constant priority. Navy Safe Harbor, the 
Associated Anchor Program, and our Operational Stress Control 
Program are critical elements of this continuum of care.
    Our leadership remains focused on providing support to our 
sailors and their families to foster resilience as well as 
family readiness.
    We believe that family readiness and personal readiness 
supports war fighting capability and directly impacts job 
performance, satisfaction, and retention. We continue to adapt 
our personal and family readiness programs to meet the needs of 
our sailors and their families.
    We monitor the health of the force through surveys and 
retention data which indicate that sailors overall are 
satisfied with their leadership, their benefits, and their 
compensation. Your support of our people has made this 
possible.
    We continue to focus our efforts on sustaining this 
balanced force in terms of seniority, experience, and skill 
sets. Our fiscal year 2011 end strength request of 328,700 
represents a stabilized end strength level to meet our 
operational commitments.
    Like the other services, we continue to be successful in 
recruiting and retaining high-quality sailors. Targeted 
investments in special and incentive pays and bonuses are 
fundamental to this success as we sustain this extraordinary 
force.
    While we must continue to apply targeted bonus programs to 
selected critical skills, we have been able to make reductions 
in recruiting and retention bonuses over the last year. We 
continue to adjust them on a dynamic basis as we respond to 
changes in the broader economy.
    We also continue to benchmark our programs against those in 
industry and government to ensure we reward our people's 
service with the very best our nation has to offer.
    Your Navy has received 20 national awards over the last 20 
months, recognizing accomplishments across the areas of 
workforce planning, life-work integration, diversity, and 
training. Our strategic imperative remains to sustain the 
world's finest naval force.
    On behalf of the men and women of the United States Navy 
and their families who faithfully support them, I would like to 
extend my sincere appreciation to the committee and the 
Congress for your unwavering support. Thank you, and I look 
forward to your questions.
    [The prepared statement of Admiral Ferguson can be found in 
the Appendix on page 108.]
    Mrs. Davis. Thank you.
    General Zilmer.

     STATEMENT OF LT. GEN. RICHARD C. ZILMER, USMC, DEPUTY 
 COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

     General Zilmer. Chairwoman Davis, Ranking Member Wilson, 
distinguished members of the subcommittee, it is my privilege 
to appear before you today. I would like to make a few brief 
points.
    First, the Marine Corps achieved unprecedented success in 
fiscal year 2009, completing our end strength growth to 
202,000, two years early. Our challenge now is to shape our 
force to make sure we have the right grades, experience, and 
skills necessary to fulfill the operational requirements.
    Even with the current economic conditions, we will need to 
increase retention in targeted and specialized occupational 
specialties so that we may maintain the vital Marine Corps 
leadership in critical skills that are necessary.
    To accomplish this, we must rely on enlistment and 
reenlistment incentives, and we appreciate your continued 
support for these programs.
    Second, I want to reiterate that taking care of our Marines 
and their families remains one of our corps' highest 
priorities. With your support, we initiated many personnel and 
family readiness program improvements during fiscal year 2009, 
and have built these programs in to our baseline budget.
    We have hired 400 family readiness officers. We have 
established school liaison officers at all of our major 
installations. We are increasing child care spaces. We are 
improving our already well-regarded exceptional family member 
program. We are integrating our behavioral health programs to 
provide a holistic solution to suicide, sexual assault, and 
combat stress prevention.
    Lastly, I know our nation's wounded warriors are a top 
priority for you, and I can assure you that they are for the 
Marine Corps as well. Despite the challenges they face as they 
recover, our wounded, ill, and injured Marines are highly 
motivated to contribute to our war fighting mission and to our 
society.
    From our recovery care coordinators and other wounded 
warrior care staff to our Department of Defense best practice 
Sergeant Merlin German Call Center, we will be there for our 
wounded warriors through all phases of their recovery.
    As we continue to deploy and fight in Afghanistan and other 
parts of the world, we must always remember that our individual 
Marines are our most precious asset. Marines are proud of the 
eagle, globe and anchor and what it represents to our country. 
With your support, a vibrant Marine Corps will continue to meet 
our nation's call.
    I look forward to answering your questions. Thank you.
    [The prepared statement of General Zilmer can be found in 
the Appendix on page 128.]
    Mrs. Davis. Thank you.
    General Newton.

STATEMENT OF LT. GEN. RICHARD Y. NEWTON III, USAF, DEPUTY CHIEF 
      OF STAFF FOR MANPOWER AND PERSONNEL, U.S. AIR FORCE

     General Newton. Madam Chairwoman, and Ranking Member 
Wilson, and distinguished members of the subcommittee, let me 
add my thanks also for this opportunity to discuss the Air 
Force efforts related to the fiscal year 2011 budget to ensure 
we attract, and recruit, and develop, and retain a high-quality 
and diverse fighting force.
    Airmen are the focal point for providing the critical 
capabilities that the Air Force contributes for winning today's 
fight, and while the Air Force has innovated technologies and 
equipment, it is the hard work of our dedicated men and women 
in uniform and our civilians and the support of our families 
who underscore our success.
    Without a doubt, the tremendous talent of our total force 
airmen and civilians is the backbone of the United States Air 
Force. As such, I am focused on ensuring our airmen possess the 
necessary skills so they can deliver the best possible support 
to our combatant commanders.
    We must ensure we have the proper end strength to meet 
current, new, and emerging missions. And for fiscal year 2011, 
our active duty end strength will be 332,200 airmen, with 
71,200 airmen in the Air Force Reserve, and 106,700 airmen in 
the Air National Guard. This is a slight increase for active 
duty and Air Force Reserve from fiscal year 2010.
    Simultaneously, we will continue to strive for balance in 
our workforce, with particular emphasis on stressed career 
fields and mission areas that need our attention, such as 
intelligence and surveillance and reconnaissance, contracting, 
security forces, to name a few.
    For instance, we have added contracting officers to the Air 
Force list of low retained career fields, and these officers 
will begin receiving critical skills retention bonuses this 
year.
    The growth in authorized end strength goes hand in hand 
with an increase in our recruiting efforts, and it goes beyond 
finding just the right numbers. We must also ensure the right 
quality and the right skills are present in potential 
candidates. And in short, we need to be a leading competitor in 
the search for America's talent.
    Despite the weak economy, we expect fiscal year 2011 to be 
a critical retention environment for several reasons: an 
increased need to retain specific skill sets in certain 
specialties, previous end strength decreases and corresponding 
decreases in--increased operational demands, and new and 
emerging missions.
    Our commitment includes continued support for special pay 
and allowances to address recruiting and retention concerns in 
our health professional skills and our most critical war 
fighting skills such as pair rescue imagery analysis, tactical 
air control party, explosive ordinance disposal.
    Finally, we are committed to taking care of airmen and 
their families, including our wounded warriors, to whom we have 
a never-ending obligation. During this Year of the Air Force 
Family, we tackled a host of issues critically important to our 
families, such as expanding child care capacity, developing 
more robust programs for special needs families, and 
invigorating the support we provide for developed members' 
spouses and children.
    We have focused these efforts in our Airman and Family 
Readiness Centers at each of our installations, which serve as 
a central hub for airmen and family support issues.
    The Air Force is fully committed to providing for the 
nation's defense wherever the mission leads us. Your continued 
support of our initiatives to attract, develop and sustain 
talented and diverse airmen, and to care for their families is 
mission essential, and it is most appreciated.
    Our efforts to effectively manage end strength, recruit and 
retain, develop and care for airmen and their families will 
ensure we continue to provide the world's finest air space and 
cyberspace power in the world.
    Thank you for your unfailing support to the men and women 
in the United States Air Force, and I also look forward to your 
questions.
    [The prepared statement of General Newton can be found in 
the Appendix on page 147.]
    Mrs. Davis. Thank you very much. We certainly appreciate 
all of your accomplishments and the incredible men and women 
who you continue to lead. Thank you very much for that.
    You have all, I think, mentioned the need for some 
flexibility, I think, in recruitment and retention, and 
certainly there is changing economic conditions. I wonder if 
you could expand on that further, particularly Secretary 
Stanley, whether--do you believe that you have all the 
authorities that you need to really respond to all of these 
challenges as they occur?
    There is some concern, of course, that we sometimes cut 
back at a time that it is obvious we can do that, but then you 
need to be able to gear up again. Are there some authorities 
that you could speak to and that you think could--that we could 
work with a little closer?
    Dr. Stanley. Chairwoman Davis, if I understand the question 
correctly, I am not aware of any authorities that we don't have 
to be able to work together not only with the services but also 
with Congress to be able to accomplish, I believe, our end 
strength goals, balancing our force, as we look to the future.
    But I will tell you that we look forward to working very 
closely with the Congress and the services to achieve our end 
strength balances.
    Mrs. Davis. Are there any initiatives--and I guess 
everybody on the panel could speak to this--are there any 
initiatives that would be even more helpful as you respond to 
those needs to flex in recruiting and retention?
    I might add, General Zilmer, it is my understanding that in 
terms of bonuses that you actually are looking at a cut in 
fiscal year 2011 budget of about $300 million. Is that going to 
be problematic as you look to special career fields where you 
need that additional support?
    General Zilmer. Madam Chairwoman, thank you. We are 
concerned as--and we are, in fact, bringing down SRBs [Select 
Reenlistment Bonuses] from fiscal year 2009 through 2011.
    Where we are projected right now, we think we can sustain 
the force, but the importance of still maintaining those SRBs 
for the critical MOSs [Military Occupational Specialties]--the 
intelligence, the linguists, the EOD [Explosive Ordinance 
Disposal]--those will still be necessary, as well as the 
enlistment bonuses on the front end, to bring in those 
qualified people.
    So we are shaving it down, but we think that is probably 
about as low as we are going to be able to go and still sustain 
the quality of the force that we have today.
    Mrs. Davis. Are there any other comments in terms of 
specialties that you are looking for?
    General Bostick. Chairwoman Davis----
    Mrs. Davis. General Bostick.
    General Bostick [continuing]. I was going to comment from a 
recruiting end and really, the opportunities you gave us in 
National Defense Authorization Act 2006 where we had pilot 
program authorities. And those pilots were unnamed, but we 
could go out and develop four different pilots, and we tried 
different ones.
    One, you will remember, was the recruiter incentive pay, 
where we made the decision that we would pay recruiters based 
on achieving over the mission that they were required to do. We 
no longer need that, but I think it is important to have the 
opportunity to have those pilots on the shelf so that if we 
want to pursue them that we can.
    You also remember the home ownership program that we had. 
We currently have the military assistance to the national 
defense, the MAVNI [Military Accessions Vital to National 
Interest] program--military accessions that are important to 
the national defense. I think those types of programs--they may 
narrow an aperture, but it is important to have them available 
to us.
    We have decreased bonuses as well, but we are focusing the 
bonuses on those critical specialties where we need to recruit 
significantly.
    Mrs. Davis. Okay.
    Anybody else want to comment? You don't have to, but----
    General Newton. If I may, ma'am, also we are--this year we 
have 27 stressed career fields, 11 in our officer ranks, and 16 
in our enlisted ranks, and so the--but we believe we have the 
authorities in our selective enlistment bonus, particularly for 
our enlisted remains about steady for this year.
    But as we look at it in a broad sense, we have met our 
recruiting goals writ large and our retention goals, but the 
challenge is within those specialties, those high demands, 
those stressed career fields--those enablers, if you will, that 
are required downrange in places like Iraq and Afghanistan.
    I would make one comment also of a very select group, and 
that is our health professionals, and I think all of us are 
dealing with challenges in the health professional--not only 
the recruiting but the retention.
    But it is also based on a--you know, a limited supply with 
a great demand, you know, out in the United States as well.
    Admiral Ferguson. I would just say we feel we have the 
authorities and then we will adjust amounts in response to what 
happens in the broader economy. Our focus areas are also in 
those critical skills--our nuclear operators, the medical 
personnel, the SEALs, and Special Forces operators, where the 
training and initial accession criteria are so high that we 
have to continue to compete for those in the broader economy.
    Mrs. Davis. Thank you.
    I might just quickly--we didn't go on the clock right away, 
and I am on the clock as well as my colleagues, but if we--I 
could just wrap up quickly, because, Secretary Stanley, you 
mentioned My Career Advancement program. We know that that ran 
into some difficulties.
    What do you actually envision in terms of how we move 
forward with that? Clearly, the need is far greater than we 
anticipated, so where really should those budget--what should 
the numbers be?
    And are there some other programs that are helping to focus 
the spousal population to really take a look at some options 
that they may have that they may not have even thought about 
and might be in some career fields that we would actually like 
to have them engage in, but perhaps they haven't had the kind 
of support to do that?
    Dr. Stanley. Chairwoman Davis, you are absolutely right. 
First of all, we ran into what I would call the unexpected good 
thing about a program that became wildly successful and 
popular.
    They are looking at a whole range of options that, first of 
all, include the use of other programs that can--you know, that 
can complement MyCAA, still helping out, also looking, though, 
at how we would fund even what we have if we continue along the 
same line, which would be up to four billion dollars. And so 
there are offsets to that as we go forward.
    But everything is on the table right now. We made a 
commitment to bring the rest of it online--I am talking about 
phase two--by the 1st of April. So within this next week plus, 
we are actually looking at coming forward with some 
recommendations to the Secretary and, of course, working with 
Congress as we work together.
    In fact, I will be over here next week talking and working, 
you know, sort of behind the scene to work this, but you are 
absolutely right, there is more to this than just the MyCAA in 
taking care of our families in particular as we move forward.
    Mrs. Davis. Thank you. I think we might be, you know, happy 
to look at some authorization language--and maybe there are a 
few pilots that we might think about in terms of that 
transition period and really preparing for the next step in a 
few select areas, so----
    Dr. Stanley. Absolutely.
    Mrs. Davis [continuing]. Thank you for that.
    Mr. Wilson.
    Mr. Wilson. Thank you, Madam Chairwoman.
    And thank all of you for your testimony, and it really 
impressed me how sincere you are in your service and, again, 
the opportunities that you are providing young people to have 
the privilege and opportunity to serve in the military.
    Dr. Stanley, you mentioned the department and military 
services' concern--and it was referenced by others, too--of the 
situation of suicides in active and reserve forces. And you 
indicate that there is a personnel gap analysis by military 
service.
    I am concerned that there is a connection between the 
access to military health services and the incidence of 
suicide. How is the Department assisting the military services 
in providing mental health care to our troops and their 
families?
    Why does the Army have such a significant gap in the number 
of mental health providers needed and the number assigned?
    Dr. Stanley. Mr. Wilson, what I will do is I will--first of 
all, I will defer the part of the Army question to our Army 
representative, but let me just address in macro our concerns 
dealing with health, the stress that are on our forces, and 
although suicide happens to be part of the issue, there is a 
much larger issue here dealing with how we take care of our 
troops from--everything from dwell time to the stress on the 
forces and the commitment, pay and compensation.
    All these things have some impact on this, and so we are 
looking at this holistically. We have a quadrennial review that 
is actually starting here very shortly that will take in part 
of this.
    And the first thing that I did--I hope I mentioned this the 
last time I was here--was that we brought on someone 
immediately in the medical profession to help take over the 
health affairs part temporarily till the candidate got through 
to make sure that we addressed the issues of health affairs, 
taking care of our troops and their families primarily.
    Those are macro statements as I work my way into learning 
more about what we can do in working with Congress. This is 
part of my agenda for coming over next week also to work with 
you.
    Mr. Wilson. All right.
    And, General Bostick.
    General Bostick. Yes. Suicides is a tragic situation in any 
unit, in any family, and one suicide is too many. Our Vice 
Chief of Staff of the Army has taken the leadership on this in 
developing the campaign plan for health promotion, risk 
reduction and suicide prevention and has laid out an aggressive 
strategy on the way ahead.
    Part of that is counselors. Also, we are looking at alcohol 
and substance abuse and the counselors that are required there.
    Some of the challenge in hiring is due to location and some 
of the challenge in hiring is this is a small select group that 
is out there and it is a very competitive environment. But we 
are working it very hard.
    In the area of suicides, we have about 250 counselors in 
that area. We expect to get up to about 290 in the May time 
frame. The challenge for us really is that the right 
requirement, and we are studying with the medical professionals 
to determine whether the requirement is correct.
    And it could be much higher than that. So we are working 
that closely with the medical professionals and the hiring in 
my office.
    Mr. Wilson. And I want to thank whatever you do, and I 
wanted to bring to your attention that there is an organization 
in our community in the Midlands of South Carolina called 
Hidden Wounds, and they are volunteers.
    It was developed by Anna Bigham in memory of her brother, 
Lance Corporal Mills Palmer Bigham. And yesterday their 
director, Chris Johnson--Dan Ramsey came by, and they are 
providing mental health assistance and also suicide prevention 
assistance, and I thank them for what they are doing as a 
safety net and backing up DOD, the services and VA. But I am 
just grateful for what they have done.
    Another interest I have, Secretary Stanley, is the widows 
tax, and I have run into it where I have met families, the 
widow, and the children, and it affects them substantially, 
like $1,000 a month. And so what is the department proposing to 
help on this?
    Dr. Stanley. And just a question for clarity, are we 
talking about the survivors' benefits----
    Mr. Wilson. Absolutely.
    Dr. Stanley [continuing]. And the indemnity compensation?
    Mr. Wilson. That is right, yes. Offset.
    Dr. Stanley. Offset. In my time there--now, I know I 
represent the Department's position, and as I have said 
already, I know that the Department's position now is opposed 
to addressing any repeal or change in where we are looking at 
this, because there is a 10 percent over--you know, overlay or 
gap in terms of what is going on at SBP [Survivor Benefit Plan] 
as well as--the survivors benefit plan as well as what is going 
on in the indemnity compensation.
    I have not personally had an opportunity to look at the 
numbers, to look at where that--what that really means. And 
because, as I shared with you offline, I guess--because I have 
lived this life before, and if I left this world today, I know 
there might be some impact on my family.
    So, I mean, I can own that personally, but I also represent 
the Department right now, and so I am--I have to state--say 
that right now. But I am actually committed to working closely 
with you to move forward.
    Mr. Wilson. Well, thank you very much, and of course, 
Congressman Solomon Ortiz has also been very interested in this 
issue. Thank you very much.
    Mrs. Davis. Thank you.
    While we are on that, I think one of the perhaps 
inconsistencies--and you might want to just, for your 
information--I think we see concurrent receipt being discussed 
without an offset, and yet we see the SBP-DIC [Survivor Benefit 
Plan/Dependence and Indemnity Compensation] not being supported 
in terms of trying to actually, you know, deal with the 
situation before us.
    And so is that an inconsistency or is that--how would you--
is it not confusing that one would see it as an inconsistency 
actually?
    Dr. Stanley. Well, I will be up front with you. In my time 
here, I see some of that in my studies and am committed to 
saying, ``Okay, here is what I want to say right now,'' as 
where the department is.
    I haven't been there long enough to say how rigid things 
are going to be where I am working, but we are going to give 
this a good, hard look and work with you as we move forward.
    The Department's position right now is we don't want to 
repeal that. But the bottom line is we are going to give it--we 
are going to continue to work with you. I hope that is not 
confusing.
    Mrs. Davis. Yes. Thank you. I think it is really, 
certainly, a challenge from where we sit, because we are 
looking at some offsets. I think everybody feels strongly that 
this is an important thing to address. And we would like to 
move forward, and yet we are--we have some constraints now.
    Dr. Stanley. I agree.
    Mrs. Davis. Thank you.
    Dr. Snyder.
    Dr. Snyder. I will just add onto what Mr. Wilson and the 
chairman said. I mean, we are hearing from military families 
who had people die overseas, and it is impacting on young 
parents with young children, and it is a program that they have 
paid at least part of the premium on. They all recognize they 
haven't paid all of it, so I think that is why it has got our 
attention so much of late.
    I appreciate you all being here. I have known most of you, 
I guess, for some time now, and for the last 8\1/2\ years you 
have been in a military that has been at war. You all's careers 
will end still being serving a nation at war. And that is 
really unprecedented in our history, and we appreciate your 
service and of all the folks that work for you.
    I wanted to ask--as you know, our--one of our subcommittees 
has been looking at the professional military education [PME] 
issues.
    Secretary Stanley, if you were trying to judge which of the 
services are doing the most efficient job of providing 
professional military education, do you have the ability--do 
you have numbers that you could look and say, ``General Newton, 
General Zilmer, Admiral Ferguson, General Bostick, I have got 
your numbers here, it is costing you this much for a 10-month 
course, or this much for a 12-month course for an individual,'' 
or, ``The master's degree program that you are offering at an 
in-residence military PME school is this much, and it is''--I 
mean, do you have the ability to actually compare apples to 
apples to apples to apples, or are those numbers non-existent?
    Dr. Stanley. Dr. Snyder, I am smiling because I don't have 
those numbers right now. Those numbers may be resident in the 
staff. But I know enough about the different branches of the 
service to know that we are sort of comparing some apples and 
oranges when it comes to mission, how we approach the mission, 
and doing it.
    So it is not one of those--even if I had the numbers, I 
know from my experience that I would have to do some 
extrapolation in terms of how I would interpret those numbers, 
and I would obviously ask the services to maybe comment on 
that.
    I hope you understand what I am trying to----
    Dr. Snyder. No, I understand what you are saying, and I 
understand that it is different learning to fly a C-130 than it 
is learning to----
    Dr. Stanley. Yes.
    Dr. Snyder [continuing]. Do an infantry operation in the--
in the Marine Corps. On the other hand, we have been visiting 
these schools. A classroom is a classroom. A study group is a 
study group. A book is a book.
    And yet we don't seem to be able to get the numbers to 
compare--that is what I am talking about comparing, not 
comparing what are clearly dramatically----
    Dr. Stanley. I understand.
    Dr. Snyder [continuing]. Different activities, and those 
numbers might be helpful to have----
    Dr. Stanley. I agree.
    Dr. Snyder [continuing]. In terms of helping the services 
understand whether some of their sister services are being more 
efficient or less efficient.
    For the uniformed personnel, one of the issues that we have 
spent a lot of time talking about in our study--and we are 
actually about to release the report here in the next two or 
three weeks, I hope--is the issue of personnel policies and how 
that impacts on PME.
    And so if you all would discuss given that we are a nation 
at war, how do your personnel policies impact on your 
professional military education? How do you select the people 
to go into a--an in-residence PME course, based on where they 
are at in their career and what job comes off--comes after, and 
how good a job do you think you are doing at meeting the 
combatant commander's request for the level of education that 
they want for the folks they are getting?
    I mean that to be more general than maybe it sounds, but 
the issue is we have heard some complaints from both students 
going in that it didn't hit it right in their career, from the 
folks on the receiving end that maybe they didn't have the 
educational level that they would have liked to have had when 
they got to their billet.
    General Newton, want to start with you?
    General Newton. Yes, sir. For the longest of time have 
selected generally to go to intermediate development education 
about the top 25 percent, roughly, of our field grade officers 
at the major level to attend those schools, also giving them 
the opportunity--a number to--when they graduate from an in-
residence--mention Air Command and Staff College--to go on to 
the School of Applied Aerospace Studies course, the SAAS 
course, which we found to be very beneficial not only to the 
individual in their--developing their own potential, but also 
their ability to go out and serve, as you mentioned, the 
combatant commanders in a very--at the operational art level 
and above.
    And so we have begun over the past 12 months, however, to 
be more diligent in tracking those individuals, for instance, 
at the SAAS course, who receive those degrees to follow them 
not only on their post assignment from the School of Applied 
Aerospace Studies but throughout a career now.
    That said, to go to those who have--they graduate and they 
get from intermediate development education [IDE] to those who 
do senior development education--we closely track them as well.
    And as you go from the intermediate school--then you go out 
to a staff assignment or to a command, and then you have an 
opportunity, by and large--the IDE graduates then have the 
opportunity to go to the senior development education program. 
Those are about our top 15 percent. And those we clearly 
earmark for command at the colonel level and beyond.
    From our view, in terms of how we develop our future 
leaders, we look to those who have attended an in-residence 
program either through the Air Force or the other service in-
resident programs starting at the major, and then we track 
them.
    And we generally like to have our senior leaders to have 
both an intermediate development education opportunity as well 
as a senior development education opportunity.
    All that said, there is a small window of time, as I am 
sure you have earmarked, in terms of giving our men and women 
and officers an opportunity to serve not only in those schools 
but also then perhaps if they wanted to do follow-on 
scholastic--or scholastic opportunities, say, at a Harvard or 
to get an MBA at an MIT and so forth.
    And so we are wrestling with how to fit all those in, 
because we greatly value that education development 
opportunity.
    Mrs. Davis. Go ahead. That is fine. Anybody else want to--
--
    General Bostick. One of the challenges and one of the focus 
areas for the Army and, the Chief, and the Secretary is to 
restore balance in the force. And when we talk about balance, 
we have been very focused, rightly so, on the fight.
    In restoring balance, we need to bring the force back to a 
deployment of one year and redeployment at home station for two 
years. We would like that to be three years for the active 
force, but our near-term goal is two years. We think we can do 
that in 2011.
    For the reserve component, back home for four years as the 
near-term goal, long-term five years. Without that, we are 
having a tough time on the professional military education.
    And the Chief, as one of his objectives, has gone out to 
TRADOC [Training and Doctrine Command] and General Dempsey and 
asked him to look at leader development and to look at 
professional military education and see, within the Army Force 
Generation model that we have to deploy forces, when can we 
bring soldiers and leaders into the schools that they need to 
participate in.
    But this is one of the major areas that we are looking at. 
To answer your question, Senior Service College for the 
military, for the Army, is a centrally selected board that 
determines that, for our intermediate level education, all of 
our captains and majors go through there.
    But we are looking at all of that to make sure we are doing 
the right thing and growing the right leaders for the future 
assignments that they will have.
    Admiral Ferguson. I would offer that within the Navy 
unrestricted line communities, which are aviation, submarine, 
and surface, is that there is a balance between the demands of 
fleet operational requirements as well as the numbers of 
individual augmentees and staff officers who we are providing 
forward in the fight today, combined with JPME [Joint 
Professional Military Education].
    Probably the most limiting case would be our nuclear-
trained aviators, who spend 15 to 18 years flying in the 
cockpit, and then we transition them through the entire nuclear 
power pipeline, and then grow them to be our aircraft carrier 
COs [Commanding Officers].
    There is a restriction on time that is available for those 
officers, and so we have to manage it very carefully, and we 
generally require that any officer prior to going to command in 
those communities has to complete JPME I, and then under the 
current policy that in order to be selected for flag they will 
have to complete an in-residence JPME II.
    And we manage it within the time constraints, and what ends 
up happening, by community, there are greater opportunities in 
some, and lesser in others, but balanced with the war fighting 
and the education that we can do.
    General Zilmer. Congressman Snyder, to the first point, I 
think, again, the metrics that we need to compare about the 
efficiencies is something that we would be happy to look into 
and try to find some perspective there that is helpful.
    There are a number of factors--whether it is career level, 
intermediate level or top level school throughout a--an 
officer's career, we look at the timing, and there are a 
variety of issues, in order to make sure that we get the 
officer at the right time to prepare he or she for the future 
challenges they are going to see in their next expected rank or 
position they are going to.
    The opportunity to go to school is--we can't get everybody 
into a resident school, although we would like to. But the 
importance of the education itself--sometimes it is difficult 
to pull a warrior out of an expectation that he or she will be 
forward deployed to the--to the theater of operations and then 
bring them into a school environment.
    But it is so important that what we accomplish in that 
year, if that is the time in the school, that we prepare them 
for those future challenges that they are going to see.
    We perhaps have less control over that as we get to the 
more senior ranks, the senior Majors, the Lieutenant Colonels, 
who are now trying to fight those other requirements to also 
perform a joint tour, also to perform a command opportunity, so 
our window gets more difficult, so the timing, perhaps, in some 
cases would appear not to be optimum in some individual cases.
    But the education itself and what we are doing to prepare 
our warriors for the future--arguably, there is not much more--
that is more important than that.
    Mrs. Davis. Thank you.
    Thank you, Dr. Snyder. I know that that has been a concern 
and part of the working group in looking at oversight and 
investigations, and I think it is rare to have this kind of 
concentration on the education of our services and the 
professional military education, so I am really glad that he 
has taken that on. It has been a challenge, I know.
    I wanted to turn--there are always a few issues that are of 
concern. One is the role of the women in the military. And we 
are seeing that change. Women recently have been called on to 
serve on select types of submarines, and we are working through 
some of those issues.
    We know that there is going to be a different role for 
women perhaps even in Afghanistan. A group has been training in 
Pendleton. I am wondering what kinds of changes you are 
generally seeing.
    Secretary Stanley, if you could respond, and also personnel 
chiefs, whether you anticipate any changes concerning the role 
of women in the military that is being proposed by your 
respective services.
    Dr. Stanley. Well, I will speak generally, Chairwoman 
Davis, and then ask the services to be more specific.
    I have watched over the years as the role of women has 
expanded, and I am encouraged by it. I know Congress already 
has a combat exclusionary law in place, so there are things 
that women are not allowed to do by law right now.
    But having said that, warfare is changing. What used to be 
a forward edge of the battle area and things like that is not 
the same anymore. So that evolving right there will tell you 
that there is going to be some big changes.
    But there has also been, I would say, some growth in our 
services with regard to the role of women and where they are, 
because ultimately, you know, I can foresee women being at the 
top of our services, and I will say that very openly in the 
sense that they are fully engaged. They are a part of our armed 
forces. And I think that is very important for our total force 
and our all-volunteer force.
    And I will let the services talk.
    General Bostick. I was a cadet at West Point when women 
were first allowed to come to the academy, and I have stood in 
great amazement as we have seen--amazement and pride and joy to 
see women come through the academy and then the recruits that 
we brought in, the females, and to see that they are serving in 
positions of great responsibility, from private to General 
Dunwoody, a four-star general.
    I think it is a great tribute to the services and to women 
and to our men who support them in their roles. They are doing 
a terrific job. And our Chief and our Secretary have directed 
that we take a look at women in the military and their 
positions and what could be opened up.
    We are looking at our three-year cyclic review. That is 
going to start in April. And we think that would take anywhere 
from 90 to 120 days. And we will come back to the Secretary and 
the Chief with recommendations on what could change.
    But I would fully expect that their positions that they are 
serving in now that are closely related to other positions that 
they are not allowed to serve in but could serve admirably in, 
and we look forward to----
    Mrs. Davis. Could you share, how do you get that 
information? Do you go to individuals? Are there focus groups, 
surveying? How do you bring in the services, the men and women, 
to really assess that issue?
    General Bostick. The way I can tell you, I did a manning 
review for the Chief, and I went all across the Army and in 
some of our deployed locations and talked to our senior 
commanders, and they would like to see in some positions--they 
feel clearly that there are positions that women could serve in 
that are not--they are not able to now.
    So one is talking to the commanders. The other is we have 
to go out to our Training and Doctrine Command, General 
Dempsey, and he will work with all of the different branch 
proponents, whether it is engineers, MP [Military Police], 
military intelligence.
    And they will take a hard look at the positions that are 
opened or closed and make recommendations based on what we are 
seeing operationally now, because there is no front line, as 
you know, and we have women serving admirably all across the 
battlefield.
    So they will look at that, make a recommendation and it 
will come back to the chief and the secretary.
    Mrs. Davis. Thank you.
    Anybody else want to add to that?
    Admiral Ferguson.
    Admiral Ferguson. Certainly. We think what we see in the 
demography of the nation and what is happening with women 
earning 57 percent of the college degrees, nearly half the 
advanced degrees, and in our own application process at ROTC 
[Reserve Officers' Training Corps] and at the Naval Academy, 
applicants that are women are extraordinarily well qualified, 
committed to serve. It is 28 percent of the entering ROTC class 
this year, 20 percent at Annapolis.
    We see that it is a talent pool that we cannot ignore in 
the future to serve the nation. You know, we have made the 
announcement and notification pending the time for women in 
submarines on our SSBNs and SSGNs in the officer force.
    We announced this year that the first woman admiral will 
command a carrier strike group. Admiral Nora Tyson will take 
command this summer. And we see, as the other services, that 
women are rising to the challenge to serve with great ability 
and great performance.
    Mrs. Davis. Thank you.
    General Zilmer.
    General Zilmer. Madam Chairwoman, while we remain in 
compliance with the law, if we look back over the recent years 
and the roles that women have increasingly played in our 
forces, and we look at the decorations that our women are 
wearing in combat--Bronze Stars, combat action ribbons, Purple 
Hearts--we have had women killed in combat.
    So clearly, the face of war has changed. The role of women 
in those war zones has to change by definition. So there is 
great promise to what our women are going to do today and in 
the future, and we are willing to be part of any efforts to 
look at that further. Thank you.
    General Newton. Madam Chairwoman, I would echo that. We, 
too, have women who have earned the Purple Heart and been 
killed in action as well. As we look at the opportunities for a 
long period of time, opportunities have opened up and remain 
very wide for women serving in a variety of capacities.
    I, too, went to the Air Force Academy when women were--
first had the opportunity to go there, and just a few months 
ago we promoted our first woman Lieutenant General from the 
Class of 1980, Lieutenant General Janet Wolfenbarger.
    And you talk about assessment. I lead the officer 
development panel for our Chief, and we have--in fact, General 
Wolfenbarger sits on that panel to help us assess not only from 
her core acquisition logistics background but also to give us 
the broad perspective that we need. It is very helpful.
    Mrs. Davis. Thank you very much.
    Mr. Wilson.
    Mr. Wilson. Thank you very much, Madam Chairwoman.
    And, Secretary Stanley, you have got so many interesting 
issues on your plate as you come into your position. An issue 
that has always been of interest to me--it is so uplifting as I 
see guard members, reservists, active duty serving together. 
Particularly in theater, you cannot tell--I cannot tell who is 
what.
    But there is a difference on--in their retirement benefits. 
For guard and reserve, it begins at age 60. We did have a 
little chink which provided that persons who serve 90-day 
increments after January the 28th, 2008 that those 90 days 
could be subtracted from age 60, so that is a start.
    And I have got legislation that would make it retroactive 
to 9/11, and I have previously introduced much more extensive a 
flat 55, a provision for 55 to be earned one year for every two 
years over 20. I have tried everything I can, Mr. Secretary.
    So that is why just this modest little change--can you 
comment what your view is about that?
    Dr. Stanley. Yes, Mr. Wilson. First of all, our all-
volunteer force, of which the reserve and guard are part of--
and this war brings it home probably better than any other 
time. And then we look at equity and pay and the seriousness 
that goes into the deliberations regarding that pay equity. 
That is very significant.
    The Quadrennial Review is literally starting almost as we 
speak, within the next day or so. This is a very top-line, 
front--it is a priority. It is an issue that we are looking at, 
because this issue is going to require study, not a delayed 
study, not something that is saying we are going to kick the 
can down the road.
    But this is not a new issue. This is an issue that has been 
around for quite some time. And we are going to address it. We 
are going to work with Congress. I don't know what the answer 
is right now. But the issue of pay and equity is one that we 
take very seriously and one that we are going to wrestle with.
    And this is one of, as you have already alluded to, many on 
the plate, but a very significant issue in an all-volunteer 
force.
    Mr. Wilson. And I appreciate you looking into it, because 
guard and reserve members are very proud to be serving and it 
just--but that would be very helpful.
    Additionally, I believe the department is, Secretary, 
committed to providing world-class health care to our returning 
wounded while adopting the new world-class facility standards 
incorporated in the fiscal year 2010 National Defense 
Authorization Act.
    Will the new Walter Reed National Military Medical Center 
at Bethesda meet the world-class standards when it opens 
September 2011?
    Dr. Stanley. Mr. Wilson, I have--since I have been on board 
in my month, I have actually been trying to add some 
granularity to the word ``world class.'' I know it is going to 
be a good facility. I know the commitment is there for it to be 
a solid, you know, facility.
    But I have actually--that has been an issue I have been 
wrestling with, of finding the definition for ``world class.'' 
I don't know what that answer is right now as I sit here, but I 
know that the commitment, the resources, the intent of the 
department is for it to be, as I have read, world class. I am 
just personally trying to define that, that understanding.
    Mr. Wilson. Well, I have faith in you, and I do believe 
that military medicine is world class. And I know what it means 
to service members, so thank you so much.
    And I yield the balance of my time.
    Mrs. Davis. Thank you, Mr. Wilson.
    And since Mr. Wilson mentioned guard and reserve and pay 
equity issues, I wonder if we could just for a second focus on 
the raises or basically the pay grades of 0.5 percent above the 
employment cost index which we have been working at for the 
last 11 years to try and, you know, bring the private and the 
military together.
    And this year I know we are not hearing a recommendation 
that we bump that up a half a percentage point, and I wonder if 
you could--could speak to that, whether you think this is a 
good time to discontinue that practice, and how you think, 
essentially, that is going to impact the services.
    Dr. Stanley. Well, I would be interested--since I have not 
talked to the service Chiefs about the impact on the services, 
I--when I joined the staff, the recommendations were already 
there. I believe I understand them and understand that what has 
been recommended by the President will be, in fact, equitable 
and very supportive of our committed troops as they serve.
    I have still a lot to learn about what that impact really 
is, so I am not answering the question as much as it is 
understanding that this whole issue of pay and equity is a very 
serious issue.
    Personal opinion, you can't pay people enough. But I am now 
trying to balance that with all of the things that deal with 
what we pay, because we are wrestling with how much we can pay. 
That becomes part of--one of the challenges that we have right 
now.
    But I am going to allow or ask the services maybe to weigh 
in.
    Mrs. Davis. Okay. I mean, you can--you can approach it 
either way. I mean, what impact will it have to increase it by 
that percentage? Because that obviously has an impact on other 
services, health care, et cetera.
    I think that there is always a push to do that, and because 
we are looking to do very much what you say--I mean, we agree 
that we want to make certain that it is fair and that the 
issues that you face over recruitment and retention are not 
necessarily based on questions of pay alone but other benefits 
that people have to, you know, look at as they look at their 
futures.
    Would any of you like to comment on that? I mean, because 
it may be that we are looking to try and do that this year, or 
that is the recommendation.
    But I think the Congress is--I can assure there is probably 
going to be some pushback from the Congress on it. We would 
like to know what you think.
    General Bostick, do you have----
    General Bostick. Well, just in terms of the impact, if we 
were to raise it another half a percent, it would be about $200 
million for the Army in fiscal year 2011 and about $1.3 billion 
over the POM [personnel operation and maintenance] 2012 to 
2017.
    We would first like to thank the Congress and the nation 
for closing the gap in relation to civilian pay. When you look 
at from 1999 until now, we have gone from about a 13 percent 
gap down to 2.5 percent.
    And the way we are looking at it, like Dr. Stanley said, I 
think no one would turn down a--an increase in pay, but 
understanding the fiscal realities, when you look at how we 
have closed the gap, where we stand today, and you consider the 
benefits that we provide in housing and in commissary and PX 
[Post Exchange] privileges and wrap that all together, we 
actually think we have a surplus when looking at our pay for 
our soldiers in comparison to the civilians.
    Where we would like to focus and keep a lot of energy and 
resources focused on is in the quality-of-life programs, and we 
have received a lot of help there as well.
    And if you talk to our soldiers and families, the things 
that are making a difference when they come back from 
deployment are the quality housing, the quality health care, 
the access to that health care, education, the schools, 
counselors. Those sorts of things are very important, 
especially at this time, for our military.
    Admiral Ferguson. I would agree that in our surveys of our 
service members and their families, they are very satisfied 
with their levels of compensation compared to the broader 
economy at the present time, and that the bill for Navy of the 
0.5 percent increase would be about 71 to 72 million dollars 
and then, you know, that is just in fiscal year 2011.
    I agree with General Bostick that the quality-of-life 
programs, child care, health care, access to it, education, 
continue to rank at the very top of the concerns that we hear 
from our service members for their desire to stay with us for a 
career.
    General Zilmer. Likewise, I believe the indications in our 
first term reenlistments and our subsequent term reenlistments 
would suggest that our service members and families are very 
happy with the pay and compensation.
    While we haven't advocated for that 0.5 increase above the 
ECI [Employment Cost Index], just the same we thank you for 
your interest to ensure that the compensation is appropriate 
for the great work that they do for us and our nation.
    General Newton. From the Air Force standpoint, I believe 
the 0.55 would equate to approximately $90 million for fiscal 
year 2011. But again, I go back--I think echo all the service 
personnel chiefs here--is our men and women feel that they are 
adequately paid and compensated for, but at the same time, the 
people account does continue to rise with regard to follow-on 
costs with regard to TRICARE and so forth.
    And so what we have focused on in the Year of the Air Force 
Family is not only the member in uniform but their family 
members as well. That is where you get a lot of the opportunity 
to--you know, you recruit the member, you retain the family.
    And it has really enabled us to focus on our families who 
we find that are--that are under a lot of stress as well as the 
members serving, particularly in high operations tempo 
environments. So I would ask that--it is a holistic approach 
that we need to focus on as well.
    Mrs. Davis. Thank you.
    You mentioned families, and we did meet with the Military 
Family Association earlier this week, and one of the issues 
that they raised is the extent to which you assess family 
readiness, not just the service member. And I am wondering 
whether you have been thinking about that within your services, 
and is there a way to do that, especially for those in pre- and 
post-deployment.
    The Military Family Association was suggesting that they 
could help the services more by actually, you know, being asked 
and being helped, I think, as they are preparing and certainly 
when--in the post-deployment as well, that they are--what we 
know from some of the studies that are being done with young 
people is the extent and the health of--the mental health, 
really, of the non-deployed parent and how important that is.
    Are there some ways that you would really like to try and 
get at those issues in a way that haven't--hasn't been done 
before?
    General Newton. If I may, I will----
    Mrs. Davis. General Newton.
    General Newton [continuing]. I will start off. We conducted 
our--really, it was groundbreaking--our first active duty 
spouse survey back in 2009. We had RAND go out and do a very 
thorough review and study. We are going to also do a--we are 
going to continue that.
    We have our second annual Caring for People forum that is 
going to be occurring here in April. We are actually doing a 
Caring for People study to understand the challenges that our 
family members have not only from our spouses' standpoint, not 
only those on active duty but guard and reserve as well, as 
well as youth.
    And so as we carry forward--and, really, this is what this 
Year of the Air Force Family has helped us do, is to focus on 
not only those broad things we do, but where can we close some 
of those small gaps that have a big impact on individual family 
members.
    The second point I would raise is that this focus has 
created this sense of community in the Air Force that is so 
very important, particularly in the high operations tempo 
environment that we find our men and women serving in. Again, 
it is not just in active duty. There is guard and reserve as 
well.
    And so the last point I would make, and the point of your 
question, really, is it is very important that we do the deep 
data dives and that we continue to analyze and survey our men 
and women who are serving and find out where are those things 
that we can close with regard to school liaisons at our base 
installations, Exceptional Family Member programs.
    We are going to hold the--we had been dormant for a while. 
There is going to be a youth rally that we are going to have. 
We are going to take--from 81 of our installations the Youth of 
the Year at those installations are coming to Washington, D.C.
    We are going to put on--they don't know this yet, but on 
the second day of the conference in June, we are going to ask 
them how they can help their fellow youth out there in the 
United States Air Force to be more resilient. What are the 
stresses they are facing and then how can we go ahead and help 
solve those for them?
    Mrs. Davis. Thank you.
    General Zilmer. Thank you. While we have been amazed by the 
resilience of the service members themselves, we have been even 
more amazed by the resilience of the families throughout this--
throughout these last eight years.
    And many of our children, service members' children, the 
spouses, have gone three, four, five, six times with their 
spouse deployed. That is not done without an impact left at 
home.
    So to the degree that we are looking at a number of new 
initiatives in terms of counselors at our community services, 
counselors in the schools where military children are going, 
attending those schools, programs that in the past have just 
focused on spouses now allowing children to come in and talk 
about the deployment stress is certainly recognition that it is 
something that we have got to put more effort and more 
understanding into.
    The commandant--one of his initiatives when he came--became 
commandant was we need to get our--all of our family services 
on a wartime footing, and invest the effort, invest the 
resources, which we have done.
    So we certainly do not take it for granted. So to the 
degree that we have surveys that provide--inform what we are 
doing, we are absolutely committed to doing that, to make sure 
that our families remain as strong and resilient as they have 
throughout this last eight years.
    Mrs. Davis. Thank you.
    Admiral Ferguson. We also survey spouses. We did that in 
2009. And for some period of time we have been using a report 
for senior leadership, the three- and four-star level headed by 
the vice chief of naval operations, what we call the Tone of 
the Force Report.
    And we look at family readiness indicators, but they are 
not the standard readiness. I mean, are we seeing things such 
as use of payday loans, bounced checks, use of financial 
counseling services, domestic abuse or reporting incidents, 
spousal abuse--those types of parameters.
    And we have about 30 of them that we look at to see when we 
start to see stress levels appear in certain areas, what is the 
child care waiting list at various bases and facilities, and 
what we find is the use of those types of metrics elevated to 
very senior levels allows you to quickly put resources and to 
focus leadership attention to address those issues before they 
get severe.
    And I think that type of approach we would be welcome to 
work with the military families group and discuss that with 
them.
    Mrs. Davis. All right, thank you.
    General Bostick. When we look at the Army team, its 
soldiers' families and civilians and their families, and while 
some of the initial parts of our programs will focus on 
soldiers, the intent is really, in all applicable areas, to 
extend that to our civilians and to all of our family members.
    As we look at the stress on the force, we have talked about 
suicides. We have talked about substance abuse and the need for 
counselors, and a lot of that is on the reaction end, and where 
a lot of our focus is today is on the preventive side, to look 
at the strength of our soldiers and families to assess that, 
physically, emotionally, socially, spiritually, and with their 
family.
    We start that off with a global assessment tool. You go 
online. We have had about 390,000 soldiers take it and 1,800 
families, so while it has taken off with the soldiers, the 
families have worked in parallel. They are able to assess their 
psychological fitness.
    And we have risen the psychological fitness of a soldier 
and a family and a civilian to the same level as physical 
fitness, and--which has always been strong for the Army, so we 
are heavily engaged with our families. They are an important 
part of our team, as are our civilians.
    Mrs. Davis. Thank you very much. I appreciate that, because 
I think, you know, there is obviously a lot more focus on these 
issues today, and I think that the committee obviously is very 
concerned, but we hear from so many people out in our districts 
as well.
    And while there are just the most incredible resilience 
that is being demonstrated out there, the reality is that we 
have put unbelievable stress on our families, and I think that 
we need to do everything that we can.
    And we certainly hope that you will work with us as well to 
be certain that we are putting the appropriate resources into 
that, because it is worth it. Our families are worth it, and we 
need to continue to do that.
    Mr. Wilson, did you have any other questions? Okay.
    Thank you so much. We appreciate your all being here. And 
if we have any additional questions, we will continue to follow 
up. Thank you very much.
    [Whereupon, at 3:16 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             March 17, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7335.001
    
    [GRAPHIC] [TIFF OMITTED] T7335.002
    
    [GRAPHIC] [TIFF OMITTED] T7335.003
    
    [GRAPHIC] [TIFF OMITTED] T7335.004
    
    [GRAPHIC] [TIFF OMITTED] T7335.005
    
    [GRAPHIC] [TIFF OMITTED] T7335.006
    
    [GRAPHIC] [TIFF OMITTED] T7335.074
    
    [GRAPHIC] [TIFF OMITTED] T7335.075
    
    [GRAPHIC] [TIFF OMITTED] T7335.076
    
    [GRAPHIC] [TIFF OMITTED] T7335.077
    
    [GRAPHIC] [TIFF OMITTED] T7335.078
    
    [GRAPHIC] [TIFF OMITTED] T7335.079
    
    [GRAPHIC] [TIFF OMITTED] T7335.080
    
    [GRAPHIC] [TIFF OMITTED] T7335.081
    
    [GRAPHIC] [TIFF OMITTED] T7335.082
    
    [GRAPHIC] [TIFF OMITTED] T7335.083
    
    [GRAPHIC] [TIFF OMITTED] T7335.084
    
    [GRAPHIC] [TIFF OMITTED] T7335.085
    
    [GRAPHIC] [TIFF OMITTED] T7335.086
    
    [GRAPHIC] [TIFF OMITTED] T7335.087
    
    [GRAPHIC] [TIFF OMITTED] T7335.088
    
    [GRAPHIC] [TIFF OMITTED] T7335.089
    
    [GRAPHIC] [TIFF OMITTED] T7335.090
    
    [GRAPHIC] [TIFF OMITTED] T7335.091
    
    [GRAPHIC] [TIFF OMITTED] T7335.092
    
    [GRAPHIC] [TIFF OMITTED] T7335.093
    
    [GRAPHIC] [TIFF OMITTED] T7335.094
    
    [GRAPHIC] [TIFF OMITTED] T7335.095
    
    [GRAPHIC] [TIFF OMITTED] T7335.096
    
    [GRAPHIC] [TIFF OMITTED] T7335.097
    
    [GRAPHIC] [TIFF OMITTED] T7335.098
    
    [GRAPHIC] [TIFF OMITTED] T7335.099
    
    [GRAPHIC] [TIFF OMITTED] T7335.100
    
    [GRAPHIC] [TIFF OMITTED] T7335.101
    
    [GRAPHIC] [TIFF OMITTED] T7335.102
    
    [GRAPHIC] [TIFF OMITTED] T7335.103
    
    [GRAPHIC] [TIFF OMITTED] T7335.104
    
    [GRAPHIC] [TIFF OMITTED] T7335.105
    
    [GRAPHIC] [TIFF OMITTED] T7335.106
    
    [GRAPHIC] [TIFF OMITTED] T7335.107
    
    [GRAPHIC] [TIFF OMITTED] T7335.108
    
    [GRAPHIC] [TIFF OMITTED] T7335.109
    
    [GRAPHIC] [TIFF OMITTED] T7335.110
    
    [GRAPHIC] [TIFF OMITTED] T7335.111
    
    [GRAPHIC] [TIFF OMITTED] T7335.112
    
    [GRAPHIC] [TIFF OMITTED] T7335.113
    
    [GRAPHIC] [TIFF OMITTED] T7335.114
    
    [GRAPHIC] [TIFF OMITTED] T7335.115
    
    [GRAPHIC] [TIFF OMITTED] T7335.116
    
    [GRAPHIC] [TIFF OMITTED] T7335.117
    
    [GRAPHIC] [TIFF OMITTED] T7335.118
    
    [GRAPHIC] [TIFF OMITTED] T7335.119
    
    [GRAPHIC] [TIFF OMITTED] T7335.120
    
    [GRAPHIC] [TIFF OMITTED] T7335.121
    
    [GRAPHIC] [TIFF OMITTED] T7335.122
    
    [GRAPHIC] [TIFF OMITTED] T7335.123
    
    [GRAPHIC] [TIFF OMITTED] T7335.124
    
    [GRAPHIC] [TIFF OMITTED] T7335.125
    
    [GRAPHIC] [TIFF OMITTED] T7335.126
    
    [GRAPHIC] [TIFF OMITTED] T7335.127
    
    [GRAPHIC] [TIFF OMITTED] T7335.007
    
    [GRAPHIC] [TIFF OMITTED] T7335.008
    
    [GRAPHIC] [TIFF OMITTED] T7335.009
    
    [GRAPHIC] [TIFF OMITTED] T7335.010
    
    [GRAPHIC] [TIFF OMITTED] T7335.011
    
    [GRAPHIC] [TIFF OMITTED] T7335.012
    
    [GRAPHIC] [TIFF OMITTED] T7335.013
    
    [GRAPHIC] [TIFF OMITTED] T7335.014
    
    [GRAPHIC] [TIFF OMITTED] T7335.015
    
    [GRAPHIC] [TIFF OMITTED] T7335.016
    
    [GRAPHIC] [TIFF OMITTED] T7335.017
    
    [GRAPHIC] [TIFF OMITTED] T7335.018
    
    [GRAPHIC] [TIFF OMITTED] T7335.019
    
    [GRAPHIC] [TIFF OMITTED] T7335.020
    
    [GRAPHIC] [TIFF OMITTED] T7335.021
    
    [GRAPHIC] [TIFF OMITTED] T7335.022
    
    [GRAPHIC] [TIFF OMITTED] T7335.023
    
    [GRAPHIC] [TIFF OMITTED] T7335.024
    
    [GRAPHIC] [TIFF OMITTED] T7335.025
    
    [GRAPHIC] [TIFF OMITTED] T7335.026
    
    [GRAPHIC] [TIFF OMITTED] T7335.027
    
    [GRAPHIC] [TIFF OMITTED] T7335.028
    
    [GRAPHIC] [TIFF OMITTED] T7335.029
    
    [GRAPHIC] [TIFF OMITTED] T7335.030
    
    [GRAPHIC] [TIFF OMITTED] T7335.031
    
    [GRAPHIC] [TIFF OMITTED] T7335.032
    
    [GRAPHIC] [TIFF OMITTED] T7335.033
    
    [GRAPHIC] [TIFF OMITTED] T7335.034
    
    [GRAPHIC] [TIFF OMITTED] T7335.035
    
    [GRAPHIC] [TIFF OMITTED] T7335.036
    
    [GRAPHIC] [TIFF OMITTED] T7335.037
    
    [GRAPHIC] [TIFF OMITTED] T7335.038
    
    [GRAPHIC] [TIFF OMITTED] T7335.039
    
    [GRAPHIC] [TIFF OMITTED] T7335.040
    
    [GRAPHIC] [TIFF OMITTED] T7335.041
    
    [GRAPHIC] [TIFF OMITTED] T7335.042
    
    [GRAPHIC] [TIFF OMITTED] T7335.043
    
    [GRAPHIC] [TIFF OMITTED] T7335.044
    
    [GRAPHIC] [TIFF OMITTED] T7335.045
    
    [GRAPHIC] [TIFF OMITTED] T7335.046
    
    [GRAPHIC] [TIFF OMITTED] T7335.047
    
    [GRAPHIC] [TIFF OMITTED] T7335.048
    
    [GRAPHIC] [TIFF OMITTED] T7335.049
    
    [GRAPHIC] [TIFF OMITTED] T7335.050
    
    [GRAPHIC] [TIFF OMITTED] T7335.051
    
    [GRAPHIC] [TIFF OMITTED] T7335.052
    
    [GRAPHIC] [TIFF OMITTED] T7335.053
    
    [GRAPHIC] [TIFF OMITTED] T7335.054
    
    [GRAPHIC] [TIFF OMITTED] T7335.055
    
    [GRAPHIC] [TIFF OMITTED] T7335.056
    
    [GRAPHIC] [TIFF OMITTED] T7335.057
    
    [GRAPHIC] [TIFF OMITTED] T7335.058
    
    [GRAPHIC] [TIFF OMITTED] T7335.059
    
    [GRAPHIC] [TIFF OMITTED] T7335.060
    
    [GRAPHIC] [TIFF OMITTED] T7335.061
    
    [GRAPHIC] [TIFF OMITTED] T7335.062
    
    [GRAPHIC] [TIFF OMITTED] T7335.063
    
    [GRAPHIC] [TIFF OMITTED] T7335.064
    
    [GRAPHIC] [TIFF OMITTED] T7335.065
    
    [GRAPHIC] [TIFF OMITTED] T7335.066
    
    [GRAPHIC] [TIFF OMITTED] T7335.067
    
    [GRAPHIC] [TIFF OMITTED] T7335.068
    
    [GRAPHIC] [TIFF OMITTED] T7335.069
    
    [GRAPHIC] [TIFF OMITTED] T7335.070
    
    [GRAPHIC] [TIFF OMITTED] T7335.071
    
    [GRAPHIC] [TIFF OMITTED] T7335.072
    
    [GRAPHIC] [TIFF OMITTED] T7335.073
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 17, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. The Navy has recently announced a proposal to authorize 
women officers to serve on select types of submarines so you anticipate 
other changes for women in the military?
    Dr. Stanley. Yes, the Department anticipates future changes for 
women in the military. The Department is considering a request from the 
Department of the Navy to allow USMC enlisted and warrant officer women 
to serve in two Counterintelligence/Human Source Intelligence 
specialties previously closed to women. The Army is also conducting a 
3-year cyclic review of their regulatory guidance for assignment of 
women. If changes are necessary, the Department will discuss with the 
Congress and comply with statutory notification requirements.
    Mrs. Davis. The Department has submitted a supplemental request for 
$33 billion dollars to fund the surge in Afghanistan, of that $1.9 
million is for military personnel accounts. If the supplemental bill is 
not passed what would the consequences be on the military personnel 
accounts? In other words--what programs would have to be suspended?
    Dr. Stanley. If the supplemental bill is not passed there would be 
significant consequences on the military personnel accounts. Reduction 
to our military personnel account request will give us no choice but to 
reallocate funds.
    Where exactly that degradation to readiness or essential support 
might occur is difficult to predict. Under any circumstance, it is 
essential we maintain the viability of the All Volunteer Force, while 
prosecuting our Nation's wars.
    Mrs. Davis. The Department has submitted a supplemental request for 
$33 billion dollars to fund the surge in Afghanistan, of that $1.9 
billion is for military personnel accounts. If the supplemental bill is 
not passed what would the consequences be on the military personnel 
accounts? In other words--what programs would have to be suspended?
    General Bostick. The Army's manpower program, Active, Guard and 
Reserve, is sized to meet the operational requirements in FY2010. Based 
on those substantive operational requirements, the Army cannot reduce 
its strength without putting mission accomplishment at risk. Therefore, 
if the supplemental is not passed the Military Personnel Army, National 
Guard Personnel Army and Reserve Personnel Army appropriations will 
require emergency reprogramming from other appropriations to ensure 
that the Army payroll can be met. In previous years Army programs such 
as equipment purchases, Operational Tempo and depot maintenance have 
taken significant reductions to make sure that Soldiers were paid. 
These types of reprogramming actions severely hamper operational 
commanders preparing their units for combat operations.
    Mrs. Davis. The Department has submitted a supplemental request for 
$33 billion dollars to fund the surge in Afghanistan, of that $1.9 
billion is for military pesonnel accounts. If the supplemental bill is 
not passed what would the consequences be on the military personnel 
accounts? In other words--what programs would have to be suspended?
    Admiral Ferguson. Of the $1.9B for DOD supplemental request for 
military personnel, Navy's request is for $40.5 million. The Navy would 
have to defer $40.5 million in Permanent Change of Station (PCS) 
orders. Approximately 96% of the Military Personnel, Navy appropriation 
is comprised of entitlements, either by law or by contract. The PCS 
program represents most of the remaining 4% of the non entitlement 
programs. Deferring PCS orders would have a negative impact on unit 
readiness, morale and training. This delay would also have a fiscal 
impact to Fiscal Year 2012.
    Mrs. Davis. The Department has submitted a supplemental request for 
$33 billion dollars to fund the surge in Afghanistan, of that $1.9 
billion is for military personnel accounts. If the supplemental bill is 
not passed, what would the consequences be on the military personnel 
accounts? In other words--what programs would have to be suspended?
    General Zilmer. Approximately two-thirds of the supplemental 
request is comprised of special pays and allowances governed by federal 
statute, to include: Basic Allowance for Housing, Hazardous Duty Pay, 
Hostile Fire/Imminent Danger Pay, Family Separation Allowance, and 
Death Gratuities. As a result, since the Marine Corps would not 
withhold or curtail such deployment-related pay and allowances, we 
would be required to find a funding source from other critical programs 
(to include procurement and operations and maintenance programs) and 
request Congressional approval to reprogram funds to pay Marines and 
their families for such entitlements.
    Mrs. Davis. The Department has submitted a supplemental request for 
$33 billion dollars to fund the surge in Afghanistan, of that $1.9 
billion is for military personnel accounts. If the supplemental bill is 
not passed what would the consequences be on the military personnel 
accounts? In other words--what programs would have to be suspended?
    General Newton. The Air Force MILPERS supplemental request was 
$96.8M (Active--$94M; Reserve $1.3M; Guard $1.5M). The Air Force's #1 
priority is to support the war effort. If the supplemental bill is not 
passed, the Air Force must fund the requirements included in the 
supplemental from our baseline MILPERS account. To source the 
requirements the Air Force would take the following actions:
    a) Curtail military permanent change of station (PCS) moves from 
Jun to Sep. Cancels approximately 25,000 moves and negatively affects 
readiness throughout the Air Force and the ability to support emerging 
mission requirements such as cyber and nuclear. This action could 
result in freezes to assignments for mission ready personnel worldwide; 
cancels initial skills and professional military education (PME), 
graduate, and joint staff officer development; moves associated with 
normal gains and losses; and creates a long-term financial and force 
turmoil bow wave into FY11.
    b) Curtail Critical Retention Bonuses Likely to lower retention in 
critical career fields including: Para-rescue, crypto-linguist, combat 
controller, Explosive Ordnance Disposal, aerial gunners, and air 
traffic controllers. Negatively impacts readiness in key units 
supporting OEF/OIF missions.
    c) Transfer funds from investment accounts. This action delays 
capability delivery by stretching programs, increases program costs, 
and pushes bow wave of weapons system procurement bills into the 
outyears.
    The Air Force urges support for the Department's FY10 supplemental 
request.

                                  <all>

</pre></body></html>
